Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-up Audit of the Medicaid Drug Rebate Program in Delaware
July 24, 2008 | Audit A-03-07-00217
Executive Summary
Delaware's Department of Health and Social Services did not implement our recommendation to develop procedures and reconcile the Form CMS-64.9R to accounting totals reported by its fiscal agent, or to accurately report billings, collections, and outstanding rebate receivables on the Form CMS-64.9R.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS